Department of Health and Human Services

              OFFICE OF 

         INSPECTOR GENERAL 





     DOCUMENTATION OF 

  COVERAGE REQUIREMENTS 

    FOR MEDICARE HOME 

      HEALTH CLAIMS





                     Daniel R. Levinson

                      Inspector General


                       March 2012

                      OEI-01-08-00390 

EXECUTIVE SUMMARY: DOCUMENTATION OF COVERAGE
REQUIREMENTS FOR HOME HEALTH CLAIMS
OEI-01-08-00390

WHY WE DID THIS STUDY

From 2002 to 2008, the number of home health agencies (HHA) grew by 39 percent from
7,052 to 9,801. Medicare spending on home health increased 84 percent from
$8.5 billion in 2000 to $15.7 billion in 2007. The rise of home health spending leads to
concerns about the potential for improper payments due to fraud and abuse.

HOW WE DID THIS STUDY

We reviewed medical records of home health care for a sample of 495 beneficiaries to
determine whether Medicare coverage requirements were met. We also analyzed Medicare
claims to document the extent to which patients were under the care of the physician
ordering home health services. We calculated the proportion of claims that had a
corresponding billing from a physician for visits with that beneficiary at any time 3 months
before and 3 months after the episode of care.

WHAT WE FOUND

Our medical record review showed that in 2008, 98 percent of beneficiaries met the
homebound requirement and needed skilled nursing care or therapy services and that
beneficiaries were under the care of a physician. HHAs submitted 22 percent of claims in
error because services were not medically necessary or claims were coded inaccurately,
resulting in $432 million in improper Medicare payments. Also, HHAs upcoded (i.e., billed
at a level higher than warranted) about 10 percent ($278 million) of claims and downcoded
(i.e., billed at a level lower than warranted) about 10 percent ($184 million) of claims.

WHAT WE CONCLUDED

Identifying home health fraud and abuse is a significant challenge that requires
concentrated and sustained efforts using a variety of methods. Given the general concern
about risks to the Medicare program in the home health area, further investigations
beyond the medical record are needed to determine whether beneficiaries are eligible,
services are furnished, and Medicare requirements for payment are met. The Office of
Inspector General will continue to monitor Medicare home health claims to determine
whether the services are appropriate and merit payment.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           Medical records document that almost all home health          

           beneficiaries met Medicare coverage requirements .........................8 

           Home health agencies submitted 22 percent of claims in error

           in 2008, resulting in $432 million in improper payments ..............10 

Conclusion .................................................................................................12 

           Agency Comments.........................................................................12 

Appendixes ................................................................................................13 

           A: Detailed Sampling Methodology .............................................13 

           B: Selected Point Estimates and Confidence Intervals .................15 

           C: Agency Comments ...................................................................19 

Acknowledgments......................................................................................21 

             OBJECTIVES
             1.	 To determine the extent to which home health medical records
                      document compliance with Medicare coverage requirements.
             2.	 To determine the appropriateness of payments for Medicare home
                      health claims.

             BACKGROUND
             Medicare beneficiaries who are generally confined to their homes are
             eligible to receive certain medical services at home.1 Home health services
             include part-time or intermittent skilled nursing care; physical, occupational,
             and speech therapy; medical social work; and home health aide services.2
             Home health provides treatment for an illness or injury and helps
             beneficiaries regain their independence and become as self-sufficient as
             possible.
             Medicare Requirements for Home Health Services
             To qualify for home health services, Medicare beneficiaries must (1) be
             homebound; (2) need intermittent skilled nursing care or physical, speech, or
             occupational therapy; (3) be under the care of a physician; and (4) be under a
             plan of care that has been established and periodically reviewed by a
             physician.3 For a home health agency (HHA) to receive payment from
             Medicare, a physician must certify the beneficiary’s need for home health
             services and must recertify the need at least every 60 days.4
             Homebound Status
             Medicare considers beneficiaries homebound if, because of illness or injury,
             they have conditions that restrict their ability to leave their places of
             residence. Homebound beneficiaries do not have to be bedridden, but
             should be able to leave their residences only infrequently with “considerable
             and taxing effort” for short durations or for health care treatment.5
             Intermittent Skilled Nursing or Therapy Services
             The Social Security Act defines “part-time or intermittent services” as
             skilled nursing and home health aide services furnished any number of days
             per week as long as the combined services are less than 8 hours each day and



             1
                  Social Security Act, § 1835(a)(2)(A).

             2
              Social Security Act, § 1861(m); Centers for Medicare & Medicaid Services (CMS), Medicare Benefits Policy 

             Manual (MBPM), Pub. No. 100-02, ch. 7, § 40.

             3
                  42 CFR § 424.22.

             4
                  Ibid. 

             5
                  MBPM, ch. 7, § 30.1.1. 




OEI-01-08-00390             Coverage Requirements for Medicare Home Health Claims                                     1
             28 or fewer hours per week.6 A registered nurse or licensed vocational nurse
             must provide the skilled nursing care.7 Home health aide services include
             personal care, such as bathing and dressing, feeding, and simple dressing
             changes that do not require the skills of a licensed nurse.8 Therapy services
             must be performed by a qualified therapist or therapy assistant under the
             supervision of a qualified therapist.9
             Requirement To Be Under the Care of a Physician
             Medicare requires that beneficiaries be under the care of a doctor of
             medicine, osteopathy, or podiatric medicine.10 CMS expects the physician
             who signs the plan of care to see the beneficiary;11 however, prior to
             April 2011, CMS did not require the ordering physician to see the
             beneficiary in person as a condition of payment for home health care.12
             Established Plan of Care
             Medicare pays for home health services only if they are provided under a
             plan of care that a physician establishes, approves, and periodically
             reviews.13 A plan of care should list 12 items, including all pertinent
             diagnoses, functional limitations, frequency of visits to be made, and the
             types of services required.14 The physician establishes the plan of care and
             must review, sign, and date it at least once every 60 days. If a beneficiary
             does not receive at least one covered home health visit within the 60-day
             episode, CMS considers the plan to be terminated.15 Medicare reimburses
             physicians for establishing and reviewing the plan of care.
             Home Health Prospective Payment System
             In October 2000, CMS implemented the home health prospective payment
             system (PPS). Under PPS, a standardized payment is made for each 60-day
             episode of care that a beneficiary receives from an HHA. The PPS payment
             covers skilled nursing and home health aide visits, as well as covered
             therapy, medical social services, and routine medical supplies.16
             HHAs use certain elements from the Outcome and Assessment Information
             Set (OASIS) to determine the payment amount for each 60-day episode of

             6
             7
               Social Security Act § 1861(m).
                  MBPM, ch.7, § 40.1.1.
             8
                  MBPM, ch.7, § 50.2.
             9
                  MBPM, ch.7, § 40.1.1.
             10
                   42 CFR § 424.22(a)(iv).
             11
                   MBPM, ch.7, § 30.3.
             12
                Patient Protection and Affordable Care Act (P.L. 111-148) (ACA), § 6407; CMS notice accessed at
             http://www.cms.gov on August 29, 2011.
             13
                   42 CFR § 424.22(a)(iii).
             14
                   42 CFR § 484.18; MBPM, ch.7, § 30.2.1.
             15
                   MBPM, ch.7, § 30.2.9.
             16
                   65 Fed. Reg. 41128 (July 3, 2000).



OEI-01-08-00390            Coverage Requirements for Medicare Home Health Claims                                  2
             care for each beneficiary. OASIS evaluates beneficiaries and measures
             outcomes using demographic, clinical, and functional data items. Elements
             of OASIS contribute to a score that the HHAs use to assign the individual to
             a Home Health Resource Group (HHRG). The HHRGs reflect beneficiaries’
             health conditions and their needs for care in three distinct areas: clinical
             severity, functional severity, and service utilization. The assignment to a
             given HHRG represents the amount of care that the HHA expects a
             beneficiary to need. A change in the group assignment can change the
             payment that the HHA receives for care of that individual. The HHA assigns
             the beneficiary to a Health Insurance Prospective Payment System (HIPPS)
             code that is based on the HHRG level.
             2008 Changes to Home Health PPS
             For home health care episodes paid prior to 2008, CMS adjusted the home
             health base payment by assigning beneficiaries to 1 of 80 HHRGs.17 As of
             January 1, 2008, CMS significantly refined the home health payment method
             with the goal of reducing overpayments. Although HHAs continue to assign
             individuals to an HHRG using OASIS, the score now depends on the timing
             of the episode. CMS created a case-mix model that differentiates payment
             based on whether the beneficiary is in an early episode (i.e., a first or second
             episode) or a late episode (i.e., third episode and beyond), as well as whether
             the beneficiary has received more than 20 therapy visits. CMS also
             expanded the number of HHRGs from 80 to 153 to better capture the actual
             cost of care.
             Home Health Fraud
             In 2011, CMS assigned newly enrolling HHAs to the high-risk screening
             level because of program vulnerabilities that these entities pose to
             Medicare.18 As early as 1997, the Office of Inspector General (OIG)
             reported on fraud in HHAs. OIG found that 40 percent of total services in
             HHA claims reviewed did not meet Medicare reimbursement requirements.19
             As part of its review, OIG interviewed beneficiaries or beneficiaries’ family
             members, as well as the physicians who certified the plans of care. OIG also
             requested medical records to determine whether beneficiaries were
             homebound and whether the home health services were medically necessary.
             Since that time, the Department of Health and Human Services (HHS) has
             changed Medicare payment requirements, suspended payments to some
             HHAs, and investigated and pursued criminal actions in its efforts to combat
             increasing Medicare fraud, waste, and abuse by HHAs.

             17
                   72 Fed. Reg. 49762 (Aug. 29, 2007).
             18
                   76 Fed. Reg. 5862, 5870 (Feb. 2, 2011).

             19

               OIG, Review of Medicare Home Health Services in California, Illinois, New York, and Texas,
             A-04-96-02121, July 1997.



OEI-01-08-00390            Coverage Requirements for Medicare Home Health Claims                            3
             Recent Changes in Medicare Home Health Payment Requirements
             CMS makes additional payments, known as outlier payments, to compensate
             HHAs that supply services to beneficiaries who incur unusually large costs.
             However, in 2008 a number of HHAs in Miami-Dade County accounted for
             more outlier payments than did HHAs in the rest of the Nation combined.20
             In an attempt to mitigate vulnerabilities associated with outlier payments, in
             2010 CMS capped outlier payments to individual HHAs at 10 percent of
             each HHA’s total home health payments.21
             To increase physician involvement with Medicare home health beneficiaries,
             as well as to provide additional clinical oversight for HHA-provided care,
             the ACA requires that physicians (or certain practitioners working with the
             physician) who certify beneficiaries as eligible for Medicare home health
             services have face-to-face encounters with those beneficiaries.22 Such
             encounters must occur within a 120-day window: either within the 90 days
             before beneficiaries start home health care or up to 30 days after they start
             care. The signing practitioner must document who saw the patient and the
             date of the encounter; the practitioner must also describe how clinical
             findings support the beneficiary’s eligibility for home health services.23 CMS
             gave HHAs until April 1, 2011, to comply with this requirement.24
             Health Care Fraud Prevention and Enforcement Action Team
             In 2007, HHS and the Department of Justice (DOJ) established the joint
             Medicare Fraud Strike Force, which was designed to combat fraud
             through the use of Medicare data analysis and an increased focus on
             community policing.25 Building on the success of the Strike Force, in
             2009 HHS and DOJ established an interagency Health Care Fraud
             Prevention and Enforcement Action Team to combat health care fraud
             nationwide.26 Now operating in 9 cities, Strike Force efforts have resulted
             in charges against 213 individuals or entities, 107 convictions, and
             $63.9 million in investigative receivables.27



             20
               OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade County and Other 

             Geographic Areas in 2008, OEI-04-08-00570, December 2009.

             21
                  74 Fed. Reg. 58078 (Nov. 10, 2009).

             22
                  P.L. 111-148, § 6407.

             23
                  42 CFR § 424.22(a)(1)(v); 75 Fed. Reg. 70372, 70464 (Nov. 17, 2010).

             24
                  CMS notice accessed at http://www.cms.gov on August 29, 2011.

             25
               HHS, Medicare Fraud Strike Force Operations Lead to Charges Against 53 Doctors, Health Care 

             Executives and Beneficiaries for More than $50 Million in Alleged False Billing in Detroit (news release),

             June 24, 2009. Accessed at http://www.hhs.gov/ on June 25, 2009.

             26
               HHS, Attorney General Holder and HHS Secretary Sebelius Announce New Interagency Health Care Fraud 

             Prevention and Enforcement Action Team (news release), May 20, 2009. Accessed at http://www.hhs.gov/ on 

             June 19, 2009.

             27
                  HHS, Semiannual Report to Congress, Spring 2011.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                            4
             For example, on July 13, 2011, a manager and a registered nurse from an
             HHA pleaded guilty to participating in an alleged $25 million Medicare
             billing scheme.28 The two individuals falsified patient records to make it
             appear as though beneficiaries qualified for home health care and therapy
             services.
             CMS Anti-Fraud Activities
             In an evaluation of CMS-imposed Medicare payment suspensions in
             2007 and 2008, OIG found that the great majority of suspended providers
             exhibited characteristics that suggested fraud.29 Some of these suspensions
             were supported by information from beneficiaries. For example,
             beneficiaries told law enforcement or Government contractors that they
             received home health services even though they were not homebound.
             Beginning in 2009, CMS and Zone Program Integrity Contractors (ZPIC)
             conducted a 2-year study regarding home health outlier payments.30 The
             study consisted of interviewing beneficiaries to verify that they meet home
             health coverage requirements and visiting HHAs to review medical records
             to ensure that a physician who has some sort of relationship with the
             beneficiary signed a plan of care.
             Overall, CMS and ZPICs found that not all beneficiaries were, in fact,
             homebound. Many were not at home when site visits were conducted. CMS
             and ZPICs also found that the physicians who signed the beneficiaries’ plans
             of care were not the beneficiaries’ regular physicians. These findings,
             among other factors, prompted CMS to suspend 32 home health providers
             from the Medicare program.

             METHODOLOGY
             Scope
             Through review of the medical records, this evaluation determined the extent
             to which individual beneficiaries met Medicare coverage requirements for
             home health care. It also determined whether Medicare home health claims
             submitted and paid in 2008 were appropriate and whether higher rates of
             inappropriate payments existed among HHAs in geographical areas with
             patterns of aberrant billing than among HHAs in other areas. This study
             excluded episodes with four or fewer visits because they are reimbursed on a
             per-visit basis, as well as any claim with a reimbursement of less than $25.

             28
                  United States v. Nunez, S.D. Fla., No. 11-CR-20113.
             29
               OIG, The Use of Payment Suspensions To Prevent Inappropriate Medicare Payments, OEI-01-09-00180,

             November 2010.

             30
                Through CMS-awarded task orders, ZPICs detect and deter fraud, waste, and abuse of Medicare dollars by

             conducting investigations; referring cases to law enforcement; and taking administrative actions, such as 

             referring overpayments to claims processors.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                            5
             Data Sources
             We used the following three data sources to analyze Medicare home health
             claims and payments: (1) the National Claims History File (NCH), (2) the
             Online Survey Certification and Reporting System (OSCAR), and (3) a
             medical record review of home health claims.
             NCH. We used the NCH to select a sample for our medical record review.
             We calculated the proportion of claims that had corresponding billing from a
             physician for that beneficiary at any time 3 months before and 3 months
             after the episode of care. We also calculated the proportion of claims in our
             sample that documented whether the beneficiaries were under the care of the
             ordering physician.
             Online Survey Certification and Reporting System. We downloaded OSCAR
             survey and deficiency data from the three most recent surveys and analyzed
             the number and trends of deficiencies associated with plans of care for
             beneficiaries.31
             Home Health Medical Record Review. Through a contract with an
             independent firm, we conducted a medical record review of home health
             records for a sample of 495 beneficiaries.
             Sample Selection
             We obtained data on 5,536,018 home health claims from the NCH that were
             submitted in calendar year 2008. We used these data to select a stratified
             random sample of 495 home health claims. We divided the universe of
             home health claims from which we drew our sample into four strata using a
             set of five payment characteristics established in a previous OIG report that
             analyzed aberrant home health outlier payments.32 See Appendix A for
             details on the sample selection.
             Medical Record Collection
             We provided the contractor with a list of claims. For each claim, we
             included the beneficiary’s name, dates of services, and the name and address
             of the HHA. The contractor sent up to three written requests for medical
             records to each HHA and made additional telephone calls to each HHA, as
             needed. The contractor received 489 out of the 495 requested medical
             records, a 98.8-percent response rate. The contractor was unable to obtain
             six medical records because the HHAs had closed and the contractor was
             unable to determine the records’ current locations; we dropped these medical

             31
                CMS oversees compliance with Medicare health and safety standards for HHAs through the survey or 

             inspection process. Performed by States on behalf of CMS, these surveys include conducting investigations,

             certifying and recertifying that HHAs meet Medicare’s Conditions of Participation, and explaining requirements 

             to providers with regard to applicable Federal regulations.

             32
               OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade County and Other 

             Geographic Areas in 2008, OEI-04-08-00570, December 2009.




OEI-01-08-00390         Coverage Requirements for Medicare Home Health Claims                                             6
             records from our sample. We followed OIG policies to protect personally
             identifiable information.
             Medical Record Review
             The contractor reviewed the OASIS assessment and other information in the
             home health medical record to determine whether HHAs correctly coded and
             documented each 60-day episode. The contractor used Medicare policy on
             coverage requirements as well as professional judgment to verify that the
             beneficiary qualified for home health services and determine whether the
             HHA had accurately coded the OASIS. Contractor staff provided a payment
             code based on their review of the medical record, which we then used to
             compare to the one billed by the HHA.
             Based on the medical review, we calculated the proportion of claims that did
             not meet the Medicare program requirements. We also compared the
             proportion of inappropriate claims in each of the four strata, looking for
             differences among them.
             Medicare Home Health Cost Analysis
             We calculated the total dollar amount of claims that did not meet program
             requirements. This analysis included only Medicare home health claims that
             the contractor determined did not meet program requirements. In these
             situations, contractors reviewed the medical records to identify the
             appropriate diagnosis and calculated a new HIPPS code based on that
             information. We then used CMS’s fiscal year 2008 Home Health
             Prospective Payment System PC Pricer software to calculate the resulting
             Medicare reimbursement amounts. For each claim, we calculated the
             reimbursement amount using the recalculated HIPPS code submitted by the
             contractor. To calculate the total dollar amount of claims that did not meet
             program requirements, we then compared the recalculated dollar amount to
             the amount paid to the HHA.
             Limitations
             This review assessed the HHA’s medical record for the beneficiary but did
             not determine whether that record accurately reflected the beneficiary’s
             medical condition. We did not physically confirm that the beneficiary was
             homebound or determine whether the care provided was medically
             necessary.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-01-08-00390     Coverage Requirements for Medicare Home Health Claims              7
             FINDINGS
             Medical records document that almost all home health
             beneficiaries met Medicare coverage requirements
             To qualify for home health care, a Medicare beneficiary must: (1) be
             homebound, (2) need skilled nursing care or therapy services, (3) be under
             the care of a physician, and (4) be under a plan of care that has been
             established and reviewed by a physician. Our medical record review showed
             that 98 percent of beneficiaries were homebound and almost all required
             skilled nursing care and skilled services. Our review also showed that
             98 percent of beneficiaries were under the care of a physician. Finally, all
             medical records included a plan of care, but 36 percent lacked at least one
             specified element.
             Medical records show that 98 percent of beneficiaries were
             homebound and needed skilled nursing care or therapy services
             Our medical record review showed that in 2008, 98 percent of all
             beneficiaries met the criterion of being homebound. Each medical record
             stated why the beneficiary was homebound and that the beneficiary
             continued to be confined to the home. We were unable to determine whether
             the remaining 2 percent were homebound.
             In addition to indicating compliance with the homebound requirement, all
             medical records indicated that each beneficiary needed intermittent skilled
             nursing care, physical therapy, or speech therapy or had a continuing need
             for occupational therapy (see Table 1). Furthermore, our medical record
             review determined that almost all medical records sufficiently documented
             that the skilled nursing care and therapy services were reasonable and
             necessary.
             Table 1: Extent of Documentation for Home Health Skilled Care and
             Therapy Services

                                                                                        Percentage of Claims
                                                               Percentage of Claims
                                                                                          Documenting That
                  Type of Skilled Care and                       Documenting That
                                                                                           Care/Service Was
                  Therapy Service                              Beneficiary Required
                                                                                             Reasonable and
                                                                            Service
                                                                                                  Necessary
                  Skilled Nursing Care                                            92%                   99%

                  Physical Therapy                                                53%                 100%

                  Occupational Therapy                                            18%                 100%

                  Speech Therapy                                                  3%                  100%
              Source: OIG medical record review of home health claims for 2008.




OEI-01-08-00390          Coverage Requirements for Medicare Home Health Claims                                 8
             Medical records show that beneficiaries were under the care of a
             physician
             At the time of our review, CMS expected, but did not require, the physician
             who signed the plan of care to see the beneficiary at an unspecified interval
             of time. However, CMS did not explain how one might establish the
             physician-beneficiary relationship. For the purposes of our analysis, we
             used the signature on the plan of care as evidence of a relationship between
             the ordering physician and the beneficiary. Our review showed physicians’
             signatures on 98 percent of the plans of care, but 21 percent of those plans
             were missing the dates on which the physicians signed them. HHAs can
             submit a request for advance payment based on verbal orders by the
             physician; however, the plan of care must be both signed and dated by a
             physician prior to final payment of the claim.
             To gain a better understanding of the relationship between the ordering
             physician and the beneficiary, we reviewed the home health record.
             Specifically, we reviewed physician orders, dates of phone calls, and
             progress notes to determine the extent to which the beneficiary was under
             the care of the ordering physician. Although 85 percent of the home health
             records included these items, only 11 percent of the records documented at
             least one face-to-face visit with the ordering physician.
             We also reviewed separate Medicare claims data from any time 3 months
             before and 3 months after the episodes of care to determine how many
             beneficiaries had face-to-face visits with the physicians who ordered home
             health services.33 We found that only 30 percent of beneficiaries had at least
             one visit during that 6-month period. Although Medicare did not require
             such visits at the time of our review, the ACA has since created this
             requirement, and CMS expected HHAs to comply as of April 1, 2011.
             All medical records included a plan of care; however, 36 percent
             lacked at least one specified item
             In particular, 18 percent of plans did not address discharge planning and
             9 percent lacked information about rehabilitation potential (see Table 2 for a
             list of specified items). A plan of care that is truly comprehensive matches
             beneficiaries’ needs with the appropriate level of services to improve their
             quality of life, maintain their independence, and avoid hospitalization or
             long-term care. Shortfalls in any area of the plan of care, therefore, can
             adversely affect beneficiaries’ outcomes.


             33
                Our analysis of face-to-face encounters with the ordering physician differs from CMS’s requirement in two
             ways. First, we looked at all episodes of care, whereas CMS’s requirement is limited to the first episode of
             care. Second, our review included any visit 3 months before and 3 months after the episode of care, whereas
             CMS requires the qualifying visit to occur within a shorter period—3 months before or 30 days after the start of
             home health care.



OEI-01-08-00390         Coverage Requirements for Medicare Home Health Claims                                              9
             Table 2: Specified Items Missing From Home Health Plans of Care

                                                                              Percentage of Plan of Care Item
                  Plan of Care Item
                                                                                            Not Documented

                  Discharge plan                                                                        18%

                  Rehabilitation potential                                                                9%

                  Instructions for timely discharge or referral                                           7%

                  Frequency of visits to be made                                                          6%

                  Types of services, supplies, and equipment required                                     2%

                  Prognosis                                                                               2%

                  Functional limitations                                                                  1%

                  Mental status                                                                           1%

                  Activities permitted                                                                    1%

                  Nutritional requirements                                                                1%

                  All medications and treatments                                                          1%

                  Safety measures to protect against injury                                               0%
             Source: OIG medical record review of home health claims, 2010.




             State surveys also show vulnerabilities in care planning. These surveys aim
             to ensure that HHAs are meeting Medicare’s conditions of participation.
             From 2008 through 2010, State surveyors cited deficiencies related to care
             planning more often than any other deficiency. In 2008, they cited
             12 percent of HHAs for not following a written plan of care established and
             periodically reviewed by a physician. They also cited 9 percent of all HHAs
             because the plans of care were missing required items.
             Home health agencies submitted 22 percent of claims
             in error in 2008, resulting in $432 million in improper
             payment
             Our medical record review showed that HHAs submitted 22 percent of
             claims in error because services were not necessary or claims were coded
             inaccurately. This $432 million in improper payments represented about
             2.5 percent of the total $17 billion in Medicare home health payments in
             2008. Two percent ($328 million) of claims were for services that were
             not medically necessary. The beneficiaries associated with these claims
             were not homebound, not in need of skilled nursing care, or not under the
             care of a physician.
             Our medical record review also showed that HHAs upcoded about
             10 percent of claims, i.e., billed them at a level higher than the beneficiaries’


OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                            10
             conditions warranted. HHAs also downcoded about 10 percent of claims,
             i.e., billed them at a level lower than the beneficiaries’ conditions warranted
             (see Table 3). Although estimated overpayments for upcoded claims were
             $278 million and estimated underpayments for downcoded claims were
             $184 million, we cannot reliably estimate the difference. Table 3 shows the
             error rates.
             Table 3: Percentage of Miscoded Home Health Services, 2008
                  Type of Error                                                                                         Error Rate


                  Incorrect code                                                                                             20.2%

                     Upcoded                                                                                                 10.4%

                     Downcoded                                                                                                 9.8%

                  Medically unnecessary services                                                                               2.1%


                  Insufficient documentation                                                                                        0%


                  Total error rate*                                                                                          21.8%

             Source: OIG medical record review of home health claims for 2008.

             * Total error rate does not equal the combined types of errors because 0.5 percent of claims had overlapping errors.

             Upcoding often resulted because HHAs assigned inappropriate diagnosis
             codes to the beneficiaries. When an HHA adds certain diagnosis codes to a
             beneficiary’s primary diagnosis code, the payment will increase for that
             beneficiary. Although a beneficiary may be accurately diagnosed with a
             disease, it is appropriate to list it for payment purposes only when the plan of
             care addresses the condition. For example, our review found that some
             HHAs inappropriately listed gastroesophageal reflux disease (GERD) as a
             diagnosis with no further documentation related to this diagnosis other than
             listing the GERD medication that the beneficiary was taking. Conversely,
             the reviewers supported the GERD diagnosis as appropriate in cases that
             included documentation on diet and medication education along with an
             assessment that specifically addressed the GERD diagnosis.
             Additionally, we did not find different rates of miscoding among HHAs that
             exhibited aberrant billing patterns in counties that OIG had identified in
             previous studies.

             CONCLUSION
             Our medical record review showed that HHAs nearly always document the
             information necessary to demonstrate compliance with Medicare coverage
             and payment requirements. Our study identified only 2 percent of claims as
             being for services that were not medically necessary. However, other OIG
             studies and investigations, as well as joint efforts between HHS and DOJ,


OEI-01-08-00390          Coverage Requirements for Medicare Home Health Claims                                               11
             have demonstrated that home health is an area at increased risk for fraud. In
             2011, CMS assigned newly enrolling HHAs to the high risk screening level
             because of program vulnerabilities that these entities pose to Medicare.
             The nature of the Medicare home health benefit relies on an HHA’s
             documentation that a beneficiary is homebound and needs skilled nursing
             care or therapy. The ACA recognized the need to enhance the physician’s
             responsibility for certifying the need for home health services by requiring
             face-to-face contact with beneficiaries.
             Our review found that providers generally include adequate
             documentation in the medical record to support their claims for Medicare
             payment. Because our review did not look further at whether records were
             accurate, whether beneficiaries were eligible for the benefit, or whether
             the services were actually furnished, we can make no judgment about the
             extent to which these claims were properly paid. That determination
             would require additional investigation, such as site visits and interviews
             with physicians and beneficiaries.
             Identifying home health fraud and abuse is a significant challenge that
             requires concentrated and sustained efforts using a variety of methods.
             Given the general concern about risks to the Medicare program in the home
             health area, we conclude that further investigations beyond the medical
             record are needed to determine whether beneficiaries are eligible, services
             are furnished, and Medicare requirements for payment are met. OIG will
             continue to monitor Medicare home health claims to determine whether the
             services are appropriate and merit payment.

             AGENCY COMMENTS
             In its comments on the draft report, CMS stated that it has begun using
             technologies and analytic tools to prevent fraudulent payments and identify
             risky providers and claims. The agency also noted the importance of the
             new requirement for face-to-face interaction between the home health
             provider and beneficiaries.
             For the complete text of CMS’s comments, see Appendix C.




OEI-01-08-00390     Coverage Requirements for Medicare Home Health Claims              12
             APPENDIX A
             Detailed Sampling Methodology
             In an earlier study—Aberrant Medicare Home Health Outlier Payment
             Patterns in Miami-Dade County and Other Geographic Areas in 2008
             (OEI-04-08-00570)—the Office of Inspector General (OIG) matched
             providers’ ZIP Codes to the corresponding counties and calculated the total
             number of home health providers in each county. In this study, OIG
             calculated the total amount that Medicare paid for the home health claims by
             county, provider, and beneficiary and calculated the outlier amounts included
             in those payments. Using this information, OIG calculated the following
             five payments and rates nationally, as well as that for each county and home
             health provider listed on the claims:34
                             1.	 average outlier payment per provider;35
                             2.	 average outlier payment per beneficiary;36
                             3.	 average outlier payment per claim;
                             4.	 outlier payment rates (i.e., outlier payments as a percentage of
                                 total home health payments); and
                             5.	 outlier payment rates for claims with a primary diagnosis
                                 related to diabetes (i.e., outlier payments for claims with a
                                 primary diagnosis related to diabetes as a percentage of total
                                 home health payments).37
             We define payments as aberrant if they are at least twice the national average
             for three or more of the above five calculations.
             The four mutually exclusive strata are:
                     Stratum 1: 100 claims with a total reimbursement less than $2,500,
              Stratum 2: 200 claims with a total reimbursement greater than or equal
             to $2,500,
              Stratum 3: 75 claims from providers not in stratum 1 or 2 and not
             located in aberrant counties identified in the previous OIG study, and

             34
               According to the U.S. Census Bureau, there were 3,141 counties or county equivalents in the United States in
             2007. There were 2,158 counties or county equivalents listed on the claims we reviewed.
             35
                  This value is the equivalent of total outlier payments for an individual home health provider.
             36
                Some beneficiaries received services from more than one home health provider. These beneficiaries were
             counted more than once when calculating the average outlier payment per beneficiary for each home health
             provider.
             37
               Services related to diabetes may constitute a payment vulnerability in the Medicare program. For example,
             some home health providers received Medicare payments for reportedly providing insulin injections to
             beneficiaries who did not qualify for home health services because they were not confined to their homes.



OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                          13
              Stratum 4: 120 claims from providers that were not in stratum 1 or 2
             and that were located in aberrant counties identified in the previous OIG
             study. (See Table A-1).


             Table A-1: Descriptions of Four Strata

                                                                     Number of Claims in
                  Stratum    Stratum Description                             Population    Sample Size

                             Claims with total reimbursement
                    1        < $2,500                                          2,515,212          100

                             Claims with total reimbursement
                    2        ≥ $2,500                                          2,111,072          200

                             Claims from providers that were not
                             in stratum 1 or 2 and not located in
                             aberrant counties identified in the
                    3        previous OIG study                                 502,356            75
                             Claims from providers that were not
                             in stratum 1 or 2 and were located in
                             aberrant counties identified in the
                    4        previous OIG study                                 407,378           120

                   Total                                                       5,536,018          495




OEI-01-08-00390      Coverage Requirements for Medicare Home Health Claims                       14
             APPENDIX B
             Selected Point Estimates and Confidence Intervals



             Table B-1: Estimates Regarding Miscoded Claims and Inappropriate
             Payments
                                                                                                                95-Percent
                                                                               Point Estimate
                  Type of Estimate                   Sample Size                                       Confidence Interval
                                                                                ($ in millions)
                                                                                                            ($ in millions)
                  Percentage of claims that
                                                                489                       10.4%                 7.2%–13.6%
                  were upcoded in 2008
                  Percentage of claims that
                                                                489                        9.8%                 6.5%–13.1%
                  were downcoded in 2008
                  Percentage of claims that
                                                                489                       79.8%                75.5%–84.1%
                  were appropriately coded
                  Percentage of claims that
                                                                489                       20.2%                15.9%–24.5%
                  were inappropriately coded
                  Percentage of claims for
                  services that were medically                  489                        2.1%                   0.9%–4.6%
                  unnecessary
                  Percentage of claims that
                                                                489                        0.5%                   0.1%–3.2%
                  had overlapping errors
                  Percentage of claims that
                  did not meet Medicare                         489                       21.8%                17.4%–26.3%
                  program requirements
                  Total amount of
                  inappropriate home health                     489                      $431.5                $285.9–$576.5
                  payments
                  Amount of inappropriate
                                                                489                      $278.0                $184.1–$371.8
                  payments due to upcoding
                  Amount of inappropriate
                  payments due to                               489                      $184.3                $109.4–$259.3
                  downcoding
                  Amount of overpayments
                  due to medically                              489                      $328.0                 $83.0–$575.5
                  unnecessary services
             Source: Office of Inspector General (OIG) medical record review of home health claims for 2008.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                          15
             Table B-2: Estimates Regarding Plan of Care Items
                  Characteristic in Medical                                                                       95-Percent
                                                       Sample Size                Point Estimate
                  Records                                                                                 Confidence Interval

                  Contained a plan of care                        489                         100%                                 *

                  Lacked at least one required
                                                                  489                        35.5%                30.5%–40.9%
                  element
                  Lacked documentation on
                                                                  489                        17.9%                14.1%–22.6%
                  discharge plan
                  Lacked documentation on
                                                                  489                         9.4%                  6.7%–12.9%
                  rehabilitation potential
                  Lacked documentation on
                  instructions for timely                         489                         7.0%                  4.8%–10.0%
                  discharge or referral
                  Lacked documentation on
                  frequency of visits to be                       489                         6.3%                   4.2%–9.3%
                  made
                  Lacked documentation on
                  types of services, supplies,                    489                         1.8%                   0.9%–3.5%
                  and equipment required
                  Lacked documentation on
                                                                  489                         2.0%                   0.9%–4.6%
                  prognosis
                  Lacked documentation on
                                                                  489                         0.6%                   0.2%–1.6%
                  functional limitations
                  Lacked documentation on
                                                                  489                         0.6%                   0.2%–1.8%
                  mental status
                  Lacked documentation on
                                                                  489                         1.1%                   0.3%–3.5%
                  activities permitted
                  Lacked documentation on
                                                                  489                         1.1%                   0.5%–2.4%
                  nutritional requirements
                  Lacked documentation on
                  all medications and                             489                         1.1%                   0.4%–3.0%
                  treatments
                  Lacked documentation on
                  safety measures to protect                      489                         0.2%                      0%–1.4%
                  against injury
             Source: OIG medical record review of home health claims for 2008.

             *We are unable to calculate a confidence interval for this point estimate. We are confident that the point estimate
             accurately predicts the population value.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                                16
             Table B-3: Estimates Regarding Requirements for Home Health Coverage
                                                                                                                  95-Percent
                  Requirement                          Sample Size                Point Estimate
                                                                                                          Confidence Interval
                  Beneficiaries were
                                                                                             98.3%                96.5%–99.2%
                  homebound                                       489
                  Beneficiaries had an
                                                                                              1.7%                  0.7%–4.22%
                  uncertain homebound status                      489
                  Beneficiaries received
                                                                                             92.3%                89.1%–94.6%
                  skilled nursing care                            489
                  Skilled nursing care was
                                                                                             99.4%                97.5%–99.7%
                  reasonable and necessary                        489
                  Beneficiaries received
                                                                                             53.3%                48.5%–58.1%
                  physical therapy                                489
                  Physical therapy was
                                                                                              100%                                 *
                  reasonable and necessary                        489
                  Beneficiaries received
                                                                                             17.8%                14.2%–21.6%
                  occupational therapy                            489
                  Occupational therapy was
                                                                                              100%                                 *
                  reasonable and necessary                        489
                  Beneficiaries received
                                                                                              3.1%                1.96%–4.92%
                  speech therapy                                  489

                  Speech therapy was
                                                                  489                         100%                                 *
                  reasonable and necessary
             Source: OIG medical record review of home health claims for 2008.
             *We are unable to calculate a confidence interval for this point estimate. We are confident that the point estimate
             accurately predicts the population value.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                                17
             Table B-4: Estimates Regarding Physician Involvement With Home Health
              Beneficiaries
                                                                                                          95-Percent
                  Type of Estimate                  Sample Size                  Point Estimate
                                                                                                  Confidence Interval
                  Percentage of physicians
                  who signed the plans of                      489                       98.0%          95.4%–99.1%
                  care
                  Percentage of plans of care
                  that were missing the date
                                                               489                       21.1%          15.2%–27.1%
                  on which the physicians
                  signed them
                  Percentage of medical
                  records indicating that the
                  beneficiaries were under the                 489                       84.6%          80.6%–88.5%
                  care of the ordering
                  physicians
                  Percentage of medical
                  records that documented at
                                                               489                       10.7%           7.2%–14.1%
                  least one visit by the
                  ordering physician
                  Percentage of beneficiaries
                  who did not have
                  face-to-face visits with the
                  ordering physicians during                                             30.0%          25.1%–34.8%
                                                               489
                  the 3 months before or after
                  their home health episodes
                  of care
             Source: OIG medical record review of home health claims for 2008.




OEI-01-08-00390           Coverage Requirements for Medicare Home Health Claims                                   18
                    APPENDIXC
                    Agency Comments




 /fP'_..,
( - . : : / - 	 DEPARIMENT OF HEALTH & HUMAN SERVICES                                Centers for Medicare & Medicaid Services


                                                                                     Administrator
                                                                                      Washington. DC 20201




            DATE:          JAN 272012
            TO: 	         Daniel R. Levinson 

                          Inspector General 

                                                 /S/
            FROM: 	       MaciJ.ytl "Th.venner
                          Actin~dq).inistrator

            SUBJECT: 	 Office of Inspector General (OlG) Draft Report: "Documentation of Coverage
                       Requirements for Medicare Home Health Claims" (OEI-01-08-00390)


            Thank you for the opportunity to review and comment on the OIG draft report titled,
            "Documentation of Coverage Requirements for Medicare Home Health Claims" (OEI-01-08­
            00390). The Centers for Medicare & Medicaid Services (CMS) appreciates the time and
            resources OIG has invested to review this issue. OIG's audit focused on a medical record review
            of home health records for a sample of beneficiaries to determine if Medicare coverage
            requirements were met. The objective of the audit was to determine the extent to which these
            records document compliance with Medicare coverage requirements and to determine payment
            accuracy for Medicare home health claims. OIG reported two findings to CMS for
            consideration. Its major findings stated the following: 1) medical records document that almost
            all home health beneficiaries met Medicare coverage requirements and 2) home health agencies
            submitted 22 percent of claims in error in 2008.

            The CMS is committed to reducing improper payments in the Medicare Fee-For-Service
            program. CMS will c.ontinue to use its availahle resources to ensure home health claims are paid
            in accordanc.e with Medic.are coverage requirements and billing policy. CMS considers the
            return on investment and other workload issues when determining the allocation of these
            resources to address vulnerabilities. We focus our medical review resources on the most highly
            vulnerable areas identified through any number of sources, including but not limited to, using
            internal data analysis tools and 01G reports.

            The OlG reported findings on types of errors. OlG found that only 2 percent of claims were not
            medically necessary and determined that the majority of the estimated $432 million dollars in
            improper payments were due to coding errors (upcoded overpayments or downcoded
            underpayments). CMS recognizes the signitlcance of the estimated improper payments in this
            report. Therefore, we will share this report with our contractors to consider as they determine
            where to focus resources in the future.




OEI-01-08-00390              Coverage Requirements for Medicare Home Health Claims                                              19
OEI-01-08-00390   Coverage Requirements for Medicare Home Health Claims   20
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Joyce Greenleaf, Regional
             Inspector General for Evaluation and Inspections in the Boston regional
             office, and Russell Hereford, Deputy Regional Inspector General.
             Danielle Fletcher served as the team leader for this study. Other principal
             Office of Evaluation and Inspections staff from the Boston regional office
             who contributed to the report include Tim Chettiath; central office staff who
             contributed include Clarence Arnold and Sandy Khoury.




OEI-01-08-00390     Coverage Requirements for Medicare Home Health Claims             21
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
